<html>
<title> - TO AMEND THE ATOMIC ENERGY ACT OF 1954 TO REQUIRE CONGRESSIONAL APPROVAL OF AGREEMENTS FOR PEACEFUL NUCLEAR COOPERATION WITH FOREIGN COUNTRIES, AND FOR OTHER PURPOSES; FURTHERING INTERNATIONAL NUCLEAR SAFETY ACT OF 2011; ASSESSING PROGRESS IN HAITI ACT; AND BELARUS DEMOCRACY REAUTHORIZATION ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
    TO AMEND THE ATOMIC ENERGY ACT OF 1954 TO REQUIRE CONGRESSIONAL 
 APPROVAL OF AGREEMENTS FOR PEACEFUL NUCLEAR COOPERATION WITH FOREIGN 
  COUNTRIES, AND FOR OTHER PURPOSES; FURTHERING INTERNATIONAL NUCLEAR 
   SAFETY ACT OF 2011; ASSESSING PROGRESS IN HAITI ACT; AND BELARUS 
                 DEMOCRACY REAUTHORIZATION ACT OF 2011

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

              H.R.1280, H.R. 1326, H.R. 1016 and H.R. 515

                               __________

                             APRIL 14, 2011

                               __________

                           Serial No. 112-36

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
66-797                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1280, To amend the Atomic Energy Act of 1954 to require 
  congressional approval of agreements for peaceful nuclear 
  cooperation with foreign countries, and for other purposes.....     2
  Amendment in the nature of a substitute to H.R. 1280 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, Committee 
    on Foreign Affairs...........................................    14
  Amendment to the amendment in the nature of a subsitute to H.R. 
    1280 offered by the Honorable Brad Sherman, a Representative 
    in Congress from the State of California.....................    34
H.R. 1326, Furthering International Nuclear Safety Act of 2011...    41
  Amendment to H.R. 1326 offered by the Honorable Jeff 
    Fortenberry, a Representative in Congress from the State of 
    Nebraska.....................................................    50
  Amendment to H.R. 1326 offered by the Honorable Gerald E. 
    Connolly, a Representative in Congress from the Commonwealth 
    of Virginia..................................................    65
H.R. 1016, Assessing Progress in Haiti Act.......................    66
  Amendment in the nature of a substitute to H.R. 1016 offered by 
    the Honorable Ileana Ros-Lehtinen............................    75
  Amendment to the amendment in the nature of a substitute to 
    H.R. 1016 offered by the Honorable Gerald E. Connolly........    86
H.R. 515, Belarus Democracy Reauthorization Act of 2011..........    89
  Amendment in the nature of a substitute to H.R. 515 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................   102
  Amendment to the amendment in the nature of a substitute to 
    H.R. 515 offered by the Honorable Gerald E. Connolly.........   118

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California: Science & Technology article entitled 
  ``The Nuclear Power Revolution, Modular High-Temperature 
  Reactors Can Change the World,'' by Marjorie Mazel Hecht, 
  November 21, 2008..............................................    55

                                APPENDIX

Markup notice....................................................   122
Markup minutes...................................................   123
Markup summary...................................................   125
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement on H.R. 1016.........   127


    TO AMEND THE ATOMIC ENERGY ACT OF 1954 TO REQUIRE CONGRESSIONAL 
 APPROVAL OF AGREEMENTS FOR PEACEFUL NUCLEAR COOPERATION WITH FOREIGN 
  COUNTRIES, AND FOR OTHER PURPOSES; FURTHERING INTERNATIONAL NUCLEAR 
   SAFETY ACT OF 2011; ASSESSING PROGRESS IN HAITI ACT; AND BELARUS 
                 DEMOCRACY REAUTHORIZATION ACT OF 2011

                              ----------                              


                        THURSDAY, APRIL 14, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will please come to 
order. I am pleased to convene this markup meeting of the 
Committee on Foreign Affairs. We have four bipartisan measures 
before us today. We received word last night that due to the CR 
timing issues with the Senate, the House will be convening for 
legislative business an hour earlier than previously expected, 
leaving us less time for our committee business this morning. 
So restraint and brevity would be very much appreciated to 
allow us to work as efficiently as possible. And we know that 
several members have other markups, one of them being 
Judiciary. So members are given leave to insert remarks into 
the record should they choose do so.
    Pursuant to notice for purposes of a markup, I call up the 
bill H.R. 1280, To amend the Atomic Energy Act of 1954, and for 
other purposes. Without objection, this bill will be considered 
as read and open for amendment at any point and the bipartisan 
amendment in the nature of a substitute that members have 
before them will be considered as read and as base text for 
purposes of amendments.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <greek-l>ANS deg.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Before turning to the ranking 
member, I recognize myself to speak on this measure.
    This amendment in the nature of a substitute represents a 
broad bipartisan consensus on a much-needed reform of the 
Atomic Energy Act and contains contributions from several 
members of this committee, most especially from the ranking 
member, Mr. Berman. Its principal purpose is to enhance the 
role of Congress in approving nuclear cooperation agreements 
with other countries as well as to strengthen protections 
against peaceful nuclear cooperation being misused for military 
purposes. If a country meets the nonproliferation conditions in 
the Atomic Energy Act, as amended by this bill, the approval 
process would continue as before; that is, a congressional 
review period of 90 days of continuous session, after which the 
agreement would go into effect unless we adopt a resolution of 
disapproval.
    The new conditions in this bill are essential to 
strengthening the nonproliferation regime and include such 
basic steps as requiring that the other country: Is closely 
cooperating with the U.S. to prevent terrorists from acquiring 
weapons of mass destruction; is not a Destination of Diversion 
Concern under the Comprehensive Iran Sanctions, Accountability, 
and Divestment Act of 2010; has acceded to the major 
international conventions regarding nuclear, chemical, and 
biological weapons; and has established an effective export 
control system to prevent goods and materials being sent to 
countries for use in nuclear weapons programs. The country must 
also agree to forego manufacturing nuclear fuel by enriching 
uranium or reprocessing plutonium, unless it already has this 
capacity in place when it signs its agreement with the United 
States.
    Further, this bill specifies that a proposed agreement with 
a country that does not meet all of these requirements in the 
amended AEA will require an affirmative vote by both Houses of 
Congress.
    There are a number of other important provisions in this 
bill, such as the termination of assistance to any country that 
withdraws from the Nuclear Non-Proliferation Treaty, a 
prohibition of assistance to any country that is actively 
engaged in proliferation, and a requirement that the President 
keep this committee and its Senate counterpart fully and 
currently informed on new and ongoing negotiations, among 
others.
    It is important that Congress act now to put these new 
protections in place so that cooperation between the U.S. and 
other countries to promote peaceful nuclear activities can grow 
without fear that it will be used to undermine our national 
security and that of the world as a whole.
    With that, I am so pleased to recognize my good friend the 
ranking member for any remarks he might have on the measure 
that he has worked so hard on.
    Mr. Berman. Madam Chairman, thank you very much, and I 
particularly thank you for your willingness to work with us. 
This was an issue that we both feel very strongly about and 
share the same goal on. We had, sadly, different approaches. We 
were able to meld them and I think it is a great way to start 
off the first markup of your chairmanship in terms of the 
process we were able to engage in. And I wanted you to know 
that I appreciate your cooperation and the cooperation and 
efforts of your staff very much.
    One other point before I get into my opening comments, and 
that is that for those of us who serve on both the Foreign 
Affairs Committee and Judiciary, this is one of those days that 
frustrate us because in both committees we have markups here on 
some very important pieces of legislation. In the Judiciary 
Committee, they are marking up patent legislation which I had 
sponsored 3 years ago, and this is the bill that Dana 
Rohrabacher, the gentleman from California, my good friend, 
called the worst bill he had ever seen, until he saw several 
other of my bills. So I will be a little bit in and out, 
unfortunately, on the subject of this bill.
    The nuclear nonproliferation regime needs to be 
strengthened to better address the enrichment of uranium and 
the processing of spent fuel along with new technologies that 
can create fuel for peaceful nuclear reactors or fuel for 
nuclear weapons. So far efforts to limit the spread of these 
technologies have met with limited success. With Iran's and 
North Korea's development of these technologies, aided in large 
part by the A.Q. Khan network, they have become even more 
difficult to control.
    This is why the example of the recent U.S.-UAE Nuclear 
Cooperation Agreement is so important. The UAE on its own 
decided to foreswear enrichment and reprocessing. When the U.S. 
asked the UAE if it would formalize these restrictions in a 
legally binding commitment, they readily agreed. And this 
applies not only to nuclear fuel and equipment provided by the 
United States but fuel and equipment provided by any country.
    A State Department spokesman subsequently called this the 
gold standard for nuclear cooperation agreements, and I agree. 
Unfortunately, I understand there is a split within the U.S. 
Government over whether the gold standard ought to be applied 
globally to new cooperation agreements or just be limited to 
those with countries in the Middle East. In my view, the latter 
course would be a mistake. This continuing split over the gold 
standard is one reason we are considering a bill today. I urge 
the President to support a global application of that advanced 
standard.
    I also urge the administration to use all its influence to 
convince the other nuclear supplier states to adopt the same 
nonproliferation and security conditions in their agreements 
that we observe in ours, especially when those same suppliers 
are seeking nuclear business in the United States.
    I was pleased to cosponsor the chairman's bill, H.R. 1280, 
because I wanted to demonstrate that updating nuclear 
cooperation provisions in the Atomic Energy Act, especially by 
including an oil enrichment and processing requirement, has 
strong bipartisan support.
    I also introduced my own bill, H.R. 1320, which took a 
different approach to congressional review of new agreements of 
cooperation. My bill kept a fast track route for agreements 
that meet existing nonproliferation conditions plus some new 
ones, including a no enrichment or reprocessing requirement. 
Such agreements would come into effect unless Congress enacted 
a joint resolution of disapproval within 90 days.
    I am pleased, as I mentioned earlier, that the chair and I 
were able to work out an agreement in an amendment whereby all 
new agreements would have to be approved by Congress unless 
they incorporate a no enrichment or reprocessing requirement. 
If they do include this provision, they could go into effect 
unless Congress enacts a joint resolution of disapproval. This 
elevates the gold standard as the crucial nonproliferation 
criteria for congressional review of new agreements, the 
gateway for the fast track disapproval only path. I have no 
doubt that congressional approval of any agreement that does 
not have this provision would hinge in part on why a country 
refuses to undertake a no enrichment or reprocessing 
commitment. I also believe it is desirable to incorporate some 
incentives for states to accept a no enrichment or reprocessing 
provision.
    As this bill progresses through the legislative process, we 
should consider what sort of incentives might be useful, such 
as loan guarantees for nuclear exports to those countries, 
which was in my bill, fuel leasing or other incentives. As we 
move this legislation to the floor, it would be useful to have 
the administration give us their views on the bill, the 
utility, the gold standard for our global nonproliferation 
efforts, and their efforts to persuade other countries 
bilaterally and through the Nuclear Suppliers Group to adopt 
comparable nonproliferation conditions in their civil nuclear 
commerce.
    I am also pleased the chairman accepted some of the other 
provisions from my bill, including provisions on assistance to 
any country that withdraws from the Treaty on Nonproliferation 
of Nuclear Weapons and the creation of New State Sponsor of 
Proliferation List. I believe this subject is more important 
than it is exciting and apologize for my opening remarks.
    Mr. Royce. Madam Chairman, I move to strike the last word.
    Chairman Ros-Lehtinen. Mr. Royce. You are recognized for 5 
minutes.
    Mr. Royce. I will be very brief, Madam Chairman. I think 
this is good bipartisan legislation. It builds off the work 
that has been done on both the Nonproliferation Subcommittee 
and the full committee. And I think the global expansion of 
nuclear power really has complicated the task of making sure 
that in the end we don't increase the number of nuclear weapon 
states.
    The central problem is that it can be a sprint from a 
civilian to a military nuclear program. It is certainly not a 
marathon. And it is the enrichment and reprocessing aspects of 
the fuel cycle that puts nuclear weapons within reach. This is 
the key to the bomb making technology that a lot of states 
seek. So to handle concerns about enrichment and reprocessing, 
the U.S. Nuclear Cooperation Agreement with the UAE included a 
commitment that it forego those critical technologies. And this 
legislation pushes that model forward and really, when you 
think about it, it pushes it forward for future nuclear 
cooperation agreements. That is why it is important.
    At a time when the Obama administration is debating 
internally which way to take this policy, this is a very 
important congressional marker and it is why we should all 
support this.
    I urge passage and yield back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you so much. And before I 
recognize the ranking member on the Subcommittee on Terrorism, 
Nonproliferation, and Trade for his amendments, are there any 
other members who seek recognition?
    Mr. Rohrabacher is recognized for 5 minutes.
    Mr. Rohrabacher. This is not the worst bill that I have 
ever seen, Howard. In fact, it is pretty good.
    Let me just note for the record, as we are discussing this, 
there have been great strides that have been made in the 
development of nuclear energy for the production of 
electricity. And let me just note that we should--when anyone 
is talking about this particular issue, any country that wants 
to build a nuclear power plant that will produce electricity 
but does not then have a byproduct of creating material for a 
nuclear bomb, that option now is technologically available to 
us in high temperature gas cooled reactors that have been 
developed by a number of American corporations. So I just 
wanted to put that into the record. And we should be pushing 
people toward this new technology rather than the old 
technology.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher. Hearing 
no further speakers, I would like to recognize the RM of TNT to 
offer his amendments.
    Mr. Sherman. Thank you, Madam Chairman. First, I strongly 
support the bill and the substitute that serves as base text 
today. It restores some balance----
    Chairman Ros-Lehtinen. Mr. Sherman, would you like to call 
up the amendment first?
    Mr. Sherman. Yes. I would ask unanimous consent to offer 
two amendments en bloc.
    Chairman Ros-Lehtinen. Without objection the clerk will 
report the amendments.
    Mr. Sherman. And these are No. 14 and Sherman No. 16.
    Ms. Carroll. Amendment to the amendment in the nature of a 
substitute to H.R. 1280.
    [The amendments referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Without objection, the en bloc 
amendments are considered as read. I recognize the author, Mr. 
Sherman, to explain his amendments.
    Mr. Sherman. First is the general comments of the bill. We 
ought to have a gold standard. I think the gold standard has 
been added to. It is always included that the country adopt the 
IAEA safeguards, including the additional protocol, and that it 
agree to forego enrichment and reprocessing. The other elements 
that I think have been added to the gold standard at my urging 
and the urging of others is that they agree to restrict third-
party access without U.S. consent and that they have effective 
liability laws in place so that U.S. companies can bid on the 
opportunities to build these reactors. And I have a perfecting 
amendment that deals with that element.
    If an agreement has all four elements, if it meets the new 
gold standard, then and only then can it be signed by the 
President and simply submitted to Congress with a waiting 
period. Every other agreement under the bill is going to 
require an act of Congress to adopt, and that puts Congress in 
a position to play an important role in these agreements.
    As to these amendments, the first one deals with liability. 
We don't know what the future of nuclear power will be after 
the events in Japan, but we do want to avoid the India 
scenario. With India, we negotiated a Nuclear Cooperation 
Agreement. We played an important role in getting India through 
the Nuclear Suppliers Group. India said, ``We are going to have 
the United States build 7 to 10 reactors with a total of 10,000 
megawatts.'' And then it turned out that Indian law was such 
that our companies faced such liability that none of them would 
participate. In contrast, the French and Russian suppliers 
claim sovereign immunity, claim to be part of their respective 
governments, and say they don't need the liability waivers and 
liability provisions. As a result of the India problem, it 
looks like our companies will not have the very role that India 
wanted to give them. Therefore, under this agreement, the party 
to the Nuclear Cooperation Agreement must agree, as part of the 
agreement itself, to enact--preferably before the agreement 
goes into force but in no case less than 1 year afterwards--
liability protections efficient to allow U.S. companies to 
compete. And I should point out this will give American 
companies no more protection than the French and Russian 
suppliers already have since they claim sovereign immunity.
    The second amendment is No. 16. It is a placeholder 
designed to allow us to work further on the idea of encouraging 
restrictions on the transfers of new technology. It requires 
that U.S. cooperation with other nuclear suppliers for 
development of civilian technology, both domestically and 
abroad, be conditioned on those suppliers and their host 
nation's willingness to join us in enacting restrictions 
comparable to our own nonproliferation provisions.
    So the current amendment is a sense of Congress but I look 
forward to working with the chairwoman to turn it into 
something even more binding.
    And with that, I yield back and urge support of the 
amendment en bloc.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Sherman. I 
would like to note to members and staff that we likely will be 
voting on this measure in just a few minutes. I recognize 
myself briefly to speak on the amendments.
    I support both amendments offered by Mr. Sherman. The first 
amendment, as he explained, requires a country with which the 
U.S. is considering a Nuclear Cooperation Agreement to commit 
to putting into effect laws and regulations on civil liability 
that are sufficient to allow American companies to fully 
utilize the commercial opportunities created by the agreement. 
Without laws and regulations that are consistent with 
international standards, the risks of open-ended liability 
would likely prevent U.S. companies from operating in that 
country, even as businesses from other countries would be 
handed an unbeatable advantage.
    The second amendment is aimed at persuading nuclear 
supplier countries, such as France and Russia, to require 
nations with which they sign nuclear cooperation agreements to 
meet nonproliferation standards comparable to those in the 
amended Atomic Energy Act. Currently these and other 
governments do not require similar standards, with the result 
that more and more countries have greater access to the 
ingredients for a nuclear weapons program.
    And with that, I would like to----
    Mr. Chabot. Madam Chairman?
    Chairman Ros-Lehtinen. Mr. Chabot is recognized for 5 
minutes.
    Mr. Chabot. I move to strike the last word.
    Very briefly, I would like to commend the gentleman from 
California, Mr. Berman, for offering this amendment. I support 
it.
    Mr. Sherman. I hate to disparage the amendment, but it was 
offered by the gentleman from California, Mr. Sherman.
    Chairman Ros-Lehtinen. Mr. Chabot is recognized.
    Mr. Chabot. Mr. Sherman, I apologize.
    I appreciate him offering this amendment. I think it is 
important that we allow American companies to compete on a 
level playing field when it comes to nuclear facilities around 
the world. I commend him. I apologize for messing up his name. 
I look forward to working together with him in the future, and 
I yield back.
    Chairman Ros-Lehtinen. You and I both have names that are 
frequently stepped upon, so we don't take any great insult. Mr. 
Berman is recognized for 5 minutes.
    Mr. Berman. Thank you, Madam Chairman.
    Both these amendments, I believe, should be supported and 
on the first amendment, we have a simple choice here. If we 
want to get some of the business, we either invest in massive 
government subsidies to encourage purchases from U.S. companies 
or we take the approach of essentially saying, you have got to 
provide the insurance that countries like France and Russia 
don't need because they use the pockets of the central 
government to finance any liability consequences that come from 
it.
    So I urge support for both amendments and yield back.
    Chairman Ros-Lehtinen. Thank you.
    Hearing no other members who wish to be recognized to speak 
on these en bloc amendments, the question occurs on the en bloc 
amendments. All those in favor say aye. All opposed, no.
    In the opinion of the chair the ayes have it, and the en 
bloc amendments are agreed to. Are there any other amendments 
to the base text?
    Mr. Connolly. Madam Chairman, I have an amendment at the 
desk, No. 41.
    Chairman Ros-Lehtinen. The clerk will read the amendment.
    Ms. Carroll. Mr. Connolly, is that to H.R. 1326?
    Mr. Connolly. Wrong bill. Sorry about that.
    Chairman Ros-Lehtinen. Mr. Connolly withdraws. Hearing no 
other amendments to the base text, I move that the bill be 
reported favorably to the House, as amended. On this question, 
the Chair requests a recorded vote. The clerk will call the 
roll.
    Ms. Carroll. Chairman Ros-Lehtinen.
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith.
    Mr. Smith. Yes.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton.
    Mr. Burton. Yes.
    Ms. Carroll. Mr. Burton votes aye.
    Mr. Gallegly.
    Mr. Gallegly. Aye.
    Ms. Carroll. Mr. Gallegly votes aye.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Yes.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo.
    Mr. Manzullo. Aye.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce.
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    [No response.]
    Ms. Carroll. Mr. Wilson of South Carolina.
    Mr. Wilson of South Carolina. Aye.
    Ms. Carroll. Mr. Wilson of South Carolina votes aye.
    Mr. Mack.
    [No response.]
    Ms. Carroll. Mr. Fortenberry.
    [No response.]
    Ms. Carroll. Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    Mr. Poe. Aye.
    Ms. Carroll. Mr. Poe votes aye.
    Mr. Bilirakis.
    Mr. Bilirakis. Aye.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Mrs. Schmidt.
    Mrs. Schmidt. Aye.
    Ms. Carroll. Mrs. Schmidt votes aye.
    Mr. Johnson.
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera.
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly.
    [No response.]
    Ms. Carroll. Mr. Griffin.
    [No response.]
    Ms. Carroll. Mr. Marino.
    [No response.]
    Ms. Carroll. Mr. Duncan.
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle.
    [No response.]
    Ms. Carroll. Mrs. Ellmers.
    Mrs. Ellmers. Aye.
    Ms. Carroll. Mrs. Ellmers votes aye.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    [No response.]
    Ms. Carroll. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel.
    [No response.]
    Ms. Carroll. Mr. Meeks.
    [No response.]
    Ms. Carroll. Mr. Carnahan.
    [No response.]
    Ms. Carroll. Mr. Sires.
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch.
    [No response.]
    Mr. Cardoza.
    Mr. Cardoza. Aye.
    Ms. Carroll. Mr. Cardoza votes aye.
    Mr. Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins.
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz.
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy.
    [No response.]
    Ms. Carroll. Ms. Wilson of Florida.
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson of Florida votes aye.
    Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all the members votes?
    Ms. Carroll. Mr. Fortenberry.
    Mr. Fortenberry. Aye.
    Ms. Carroll. Mr. Fortenberry votes aye.
    Chairman Ros-Lehtinen. Any other members? If you tell the 
clerk, Mr. Kelly.
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin.
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Ms. Buerkle.
    Ms. Buerkle. Aye.
    Ms. Carroll. Ms. Buerkle votes aye.
    Chairman Ros-Lehtinen. Have all members voted? If the clerk 
will count and report the vote.
    Ms. Carroll. Madam Chairman, on that vote, there are 34 
ayes and no noes.
    Chairman Ros-Lehtinen. Thank you. The ayes have it. And the 
motion to report favorably is agreed to. Without objection, the 
bill, as amended, will be reported as a single amendment in the 
nature of a substitute, incorporating the amendments adopted by 
the committee. And the staff is directed to make technical and 
conforming changes.
    I now call up H.R. 1326, the Furthering International 
Nuclear Safety Act of 2011. Without objection, the bill will be 
considered as read and open for amendment at any point.
    [H.R. 1326 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. I recognize myself to speak briefly 
on this bill.
    The amendment that will be offered modifies Mr. 
Fortenberry's original bill by combining two required reports 
into one. It is aimed at improving the safety of the nuclear 
power plants around the world by enhancing the sharing of 
information, including strengthening the mechanisms created by 
the Convention of Nuclear Safety.
    The bill calls for the U.S. Representative to the 
Convention to encourage, among other actions, the expanded use 
of performance metrics to enable countries to better assess 
their progress in increasing nuclear safety, increase public 
availability of information regarding nuclear safety efforts, 
greater support by the IAEA for nuclear safety efforts, and 
greater cooperation on providing accurate and timely 
information regarding nuclear accidents and on developing 
emergency response plans.
    The bill would require the Secretary of State, along with 
other U.S. Government agencies, to develop a strategic plan to 
promote greater international cooperation and nuclear safety 
and to submit a report to Congress within 6 months on the 
implementation of the plan.
    I am pleased to yield to the ranking member to speak on the 
measure. Mr. Berman, do you have any remarks?
    Mr. Berman. I do.
    Chairman Ros-Lehtinen. You are recognized.
    Mr. Berman. Thank you, Madam Chairman. I move to strike the 
last word.
    There is no greater demonstration of the need for greater 
international cooperation on improved nuclear reactor safety 
than the tragedy that is still unfolding at the Fukushima 
nuclear power plant in Japan. Four reactors are still in danger 
of melting down and their highly radioactive spent fuel and 
adjacent pools is in danger of catching fire and spreading 
dangerous radioactive materials potentially worldwide. This 
bill could not be more timely and I am pleased to be an 
original cosponsor.
    H.R. 1326 will increase U.S. outreach and support through 
the auspices of the Nuclear Safety Convention to all States 
that operate nuclear power reactors to assist them in improving 
the safety of their nuclear power programs. It also requires 
the Secretary of State to submit a strategic plan to improve 
international nuclear safety for power reactors and report to 
us on how that plan is being implemented.
    I urge my colleagues to support this bill. I yield back.
    Chairman Ros-Lehtinen. Thank you so much. I know some 
members seek recognition on this bill. I would like to 
recognize, first, Mr. Fortenberry to offer his amendment. And 
if he could make remarks about the amendment in specific and on 
the bill in general, Mr. Fortenberry is recognized.
    Mr. Fortenberry. Madam Chair, I thank you for your 
leadership in holding this markup today and providing our 
committee the opportunity to consider the Furthering 
International Nuclear Safety Act of 2011, a bipartisan bill----
    Chairman Ros-Lehtinen. Mr. Fortenberry, if I could 
interrupt. You let me have the clerk present the amendment 
first. I am so sorry.
    Ms. Carroll. Madam Chairman, we are waiting on copies.
    Chairman Ros-Lehtinen. Okay. Then Mr. Fortenberry can 
continue while we make the required copies.
    Mr. Fortenberry. Thank you, Madam Chair. This is a 
bipartisan bill that seeks to enhance world-wide cooperation on 
nuclear safety in light of the continuing nuclear reactor 
crisis in Japan that followed last month's tragic earthquake 
and tsunami. The issue of nuclear safety has elevated to 
paramount importance due to the crisis in the nuclear power 
reactors at Japan's Fukushima Daiichi plant. And in the long 
term the United States as well as Japan and other countries 
with commercial nuclear power reactors will all need to learn 
from this nuclear crisis so that we can do everything in our 
power to ensure that nothing like this ever happens again.
    The bipartisan nuclear safety bill that is before you today 
aims to help achieve that essential goal. In brief, the 
Furthering International Nuclear Safety Act seeks to improve 
the safety of nuclear power plants around the world. It would 
do this by requiring the State Department to use and strengthen 
existing mechanisms for worldwide sharing of nuclear safety 
information and best practices, mechanisms that were actually 
created by the Convention of Nuclear Safety of 1994. In 
particular, the bill would require the United States 
Representative to the Convention on Nuclear Safety to strongly 
encourage among other things expanded cooperation on prediction 
and analysis capability for earthquakes, tsunamis, and on 
radiation as it is transported away from nuclear sites, 
standard practices for providing accurate and timely 
information regarding nuclear accidents, and for the 
cooperative development of emergency response plans. It would 
also increase greater public availability of information 
regarding nuclear safety efforts.
    The legislation also requires the Secretary of State to 
provide Congress with a strategic plan to promote international 
cooperation on nuclear power safety and, through this amendment 
that I am offering today, to submit at a later time a 
consolidated report on the implementation of the plan and on 
the status of achieving the actions set forth in the 
legislation.
    Analysts at the CBO informed us that this legislation, by 
the way, will present no significant cost. The United States 
joined the Convention on Nuclear Safety in 1999 and today 
almost all countries with operating nuclear power plants are 
parties to that international agreement. The U.S. Government 
Accountability Office issued an April 2010 report that 
highlighted the importance of that convention and ongoing 
efforts to improve nuclear safety globally.
    While members of this committee may disagree about the 
future of nuclear power, it is my hope that we could all agree 
about the imperative of ensuring that the world's current fleet 
of 440 commercial nuclear power reactors are operated as safely 
as possible.
    This legislation of course will not end once and for all 
the need for continuing vigilance by all countries to do a 
better job at nuclear safety, but enactment of this bill can 
play a necessary and vital role in helping to achieve that 
critical goal. Humanity cannot afford the cost of failure, and 
I urge all members of the committee to support the bill.
    Chairman Ros-Lehtinen. Thank you, Mr. Fortenberry. The 
clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 1326 offered by Mr. 
Fortenberry amends section 2 to read----
    [The amendment referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Without objection, the amendment is 
considered as read. Mr. Sherman, you have indicated that you 
would like to speak on the amendment and the bill. He is 
recognized without objection.
    Mr. Sherman. I do. It is an excellent bill. It is an 
excellent amendment. I need the rest of my time to address one 
other issue. And that is the bill we are not considering today, 
the North Korea Sanctions and Diplomatic Nonrecognition Act. 
The rumor is that we were ready to go with this bill, and the 
Ways and Means supporters of the Korea Free Trade Agreement 
said we shouldn't consider it. I hope it was some other reason.
    I know that we have a limited amount of time here, which is 
why I will try to speak quickly. But the fact is that the 
concerns of the Ways and Means Committee deserve to be 
addressed. It is true the current draft of the Free Trade 
Agreement with South Korea rips a 65-percent hole in every 
effort to sanction North Korea, and that is why the supporters 
of the Free Trade Agreement must use everything that they have 
to prevent us from focusing at this time on our North Korea 
policy and sanctions on North Korea.
    The text of the Free Trade Agreement states that if goods 
are, say, partially made in North Korea and partially made in 
South Korea, say auto parts or electronics, 65 percent are made 
in North Korea, 35 percent are made in South Korea, they have a 
right to enter our country. Now our sanctions, which are not 
codified but are a matter of executive action, prevent those 
goods from coming into our country. And as a result, we will be 
in violation of the Free Trade Agreement.
    The next part of this dance is that the Executive branch 
will water it down or waive the sanctions against North Korean 
goods to the extent that they are only 65 percent North Korean 
and 35 percent South Korean. Now it is true that there is a 
national security provision in the Free Trade Agreement, just 
as there is in all our other trade agreements, and we have 
never used the national security provisions. We gave up on the 
Iran Sanctions Act rather than exercise the national security 
provision. We gave up on Helms-Burton. And so the national 
security provision of the Korea Free Trade Agreement is 
certainly not the answer.
    The answer is to make sure that any free trade agreement 
that we sign explicitly provides that we are not in violation 
of the agreement if we choose to exclude all North Korean 
goods. That is something that will not be done. Instead, there 
will be every effort made to conceal from Congress the fact 
that the Free Trade Agreement with South Korea by its terms 
allows those partially North Korean-made goods into our 
country, sets us up for being in a position where our companies 
would be sanctioned by South Korea because we will have 
violated the agreement and creates enormous economic pressure 
for us to water down or waive our sanctions on goods that are 
partially made in North Korea.
    I look forward to the codification of our sanctions against 
North Korea, and I look forward to hopefully the Free Trade 
Agreement either being shelved or amended to making sure that 
it meets the national security concerns that are so much the 
focus of this committee.
    I yield back, and I thank the chairwoman for her time.
    Chairman Ros-Lehtinen. Thank you, Mr. Sherman. Do any other 
members seek time? Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much. I would like to 
identify myself with the remarks of Mr. Sherman. And these are 
very serious issues that he is bringing up. And I share those 
concerns and have been worried about that as well. I would like 
to ask--and this is all I have to say, Madam Chairman, as I ask 
unanimous consent to insert in the record a document detailing 
the new nuclear technology that I referred to earlier that 
cannot melt down.----
    Chairman Ros-Lehtinen. Without objection.
    Mr. Rohrabacher [continuing]. Cannot leak radiation and has 
no byproducts that can be used to build nuclear weapons. Thank 
you.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Mr. Berman is recognized.
    Mr. Berman. Where do I buy one?
    Thank you, Madam Chairman. If I may take my time to just 
ask Mr. Fortenberry a question. We had suggested adding two 
phrases to your amendment regarding the tragic undertaking in 
Japan. And one is a phrase in the findings--a longstanding 
friend and ally of the United States. And in the second 
finding, a reference that the earthquake and resulting tsunami 
caused a massive loss of life, devastated towns and farmland, 
and inserting that in the appropriate place in the second 
finding.
    This raises a larger issue, which isn't the committee's 
issue. But I will take this opportunity to bring it up. The 
leadership of the House in their rules has passed provisions 
restricting resolutions in many areas. And by and large, I 
support that decision. One is, a lot of issues that take our 
time will not be considered because of that. But there needs to 
be some flexibility. What happened in Japan and our 
relationship with that country are so important and the 
expression of the congressional understanding of the gravity of 
the tragedy there I think is so important to our friend and 
ally Japan and the Japanese people that to take a little bit, 
just a key element of a resolution which can't move because of 
those rules and incorporate it into a bill that is directly 
related to the tsunami and flood and the consequences of the 
earthquake and the tsunami on the nuclear reactor seems 
appropriate, seems called for in this kind of situation, and I 
do think this is a case where the leadership tends to be 
interpreting the rules so restrictively that it forces us not 
to do something that I think just common decency requires us to 
be doing.
    I would just like to ask the author of the amendment if it 
would be possible to add those phrases. It is not the entire 
resolution that has been introduced. You have taken some parts 
of the resolution; as I understand it, the leadership has 
signed off on. But the omission of our relationship with our 
friend and ally and the consequences of the earthquake and 
tsunami to that country I think would be appropriate, and it is 
a very small part of the underlying resolution.
    So on my time, if the gentleman or the chairman wish to 
react.
    Chairman Ros-Lehtinen. Mr. Fortenberry, I was wondering if 
I could--not taking away from your time--if I could react to 
Mr. Berman's time and not take your time as well. And while I 
agree and I think all the members would agree that what 
occurred in Japan is indeed a catastrophe in epic proportions, 
many key U.S. allies, Colombia and New Zealand, also have seen 
devastating natural disasters, and we have time on the floor 
for us to express our condolences and build on those strong 
relationships with our allies through 1-minute, 5-minute 
Special Orders, and 1 hour Special Orders. But if such language 
would be incorporated in Mr. Fortenberry's bill, even couched 
in legislative language but put in words that have really 
camouflaged our resolution language, it will not be considered 
by the rules of our leadership on the floor. So they would be 
stripped in the Rules Committee. But Mr. Fortenberry can do as 
he wishes on this language, if that is an amendment that you 
are offering.
    Mr. Berman. Well, I guess I am asking the gentleman if he 
would accept that language.
    Chairman Ros-Lehtinen. Mr. Fortenberry is recognized.
    Mr. Fortenberry. Thank you, Madam Chair. First of all, I 
want to thank the gentleman from California, the ranking 
member, for sponsoring this legislation, for cosponsoring it. I 
appreciate your interest in our longstanding relationship on 
working on issues of nuclear safety as well as 
nonproliferation. I simply have to echo the chairwoman's 
sentiments that there was--it is my understanding--some 
complexities in doing this. But I understand your 
sensibilities, and I share them. If there is an opportunity to 
work later, perhaps on the floor, to express those sentiments, 
I would be happy to work with you.
    Mr. Berman. I will not offer an amendment now, but I would 
like perhaps for us to consider the possibility if this will be 
the only opportunity for us formally to express these concerns 
between now and taking this bill up on the House floor to 
review the situation and consider the possibility of adding 
this language, perhaps in consultation with the bipartisan 
leadership.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman. Thank you, 
Mr. Fortenberry.
    Do any other members seek recognition? Mr. Connolly is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman. Let me thank Mr. 
Fortenberry for his leadership on this thoughtful piece of 
legislation which I enthusiastically support. I have a simple 
amendment at the desk.
    Chairman Ros-Lehtinen. Sir, if I could ask if we could hold 
that a second and let's take action on the Fortenberry 
amendment first. Thank you.
    If there are no other requests for time on the Fortenberry 
amendment, then the question occurs on adoption of the 
amendment that Mr. Fortenberry discussed. All those in favor 
say aye. Those opposed, no.
    In the opinion of the chair the ayes have it, and the 
amendment is agreed to.
    Are there any other amendments to the bill? Mr. Connolly is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman. I just assumed the 
Fortenberry language had been adopted by acclimation.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 1326 offered by Mr. Connolly 
of Virginia page 5 line 19 insert after: ``sites'' the 
following: Via natural ecological transport systems.
    [The amendment referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. The gentleman is recognized.
    Mr. Connolly. Madam Chairman, I thank you. I am not going 
to take much time. This is simply some language to expand on 
transported away from nuclear sites in the event of a natural 
disaster. I think we need the international cooperation of the 
scientific community, technical community, engineering 
community to look at the ecological ramifications. How do we 
treat seawater when it is polluted? What do we do about 
farmland when it is polluted with radioactivity? And that is 
the sole purpose of my language, to simply expand on 
transported away. And I hope it will be considered a principal 
amendment.
    Chairman Ros-Lehtinen. Thank you. The chair supports the 
amendment. If the ranking member would like to be recognized?
    Mr. Berman. I have no objection to the amendment.
    Chairman Ros-Lehtinen. Thank you. Do any members wish to 
speak on the amendment? Hearing no members seeking recognition, 
the question occurs on the amendment. All those in favor say 
aye. All those opposed no.
    In the opinion of the chair the ayes have it and the 
amendment is agreed to.
    Mr. Connolly. I thank the chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly. Are there 
any other amendments to the bill?
    Hearing no further amendments, I move that the bill be 
reported favorably to the House, as amended. All those in favor 
say aye. All those opposed no.
    The ayes have it, and the motion to report favorably is 
agreed to. Without objection, the bill, as amended, will be 
reported as a single amendment in the nature of a substitute 
incorporating the amendments adopted by this committee, and the 
staff is directed to make technical and conforming changes.
    I now call up H.R. 1016, the Assessing Progress in Haiti 
Act. Without objection, the bill will be considered as read and 
open for amendment at any point, and the bipartisan amendment 
in the nature of a substitute that members have before them 
will be considered as read and base text for purposes of the 
amendment.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <greek-l>ANS deg.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. I recognize myself to speak on the 
bill.
    I support H.R. 1016, a bill introduced by Congresswoman 
Barbara Lee, directing the President to report to Congress 
regarding the status of post-earthquake humanitarian 
reconstruction and development efforts in Haiti. It supplements 
our efforts under the Haiti Act, which I introduced last 
Congress, to exercise greater oversight over the disbursement 
of assistance and to ensure that it is reaching the intended 
recipients and that it is advancing U.S. priorities and Haiti's 
recovery.
    It has been about 15 months since last year's devastating 
earthquake in Haiti. In that time the United States has 
undertaken a robust and multi-faceted effort supporting the 
Haitian people as they work to rebuild and advance their island 
nation. It has not been an easy road.
    As the bill states, however, throughout this series of 
crises, the people of Haiti have continued to demonstrate 
unwavering resilience, dignity, and courage. Last month the 
final round of the Haitian elections was held, marking an 
important step toward the completion of the election process 
and ultimate transition of power from President Preval to the 
President-Elect. It would be critical that this transition 
process be carried out peacefully, responsibly, and with great 
transparency.
    Sustainable recovery in Haiti will depend on strong 
leadership by the new government of Haiti and a vigorous 
commitment to strengthen Haiti's democratic institutions and a 
concrete verifiable effort to stop corruption. And the people 
of Haiti must be included in the design and ownership of their 
political and economic future.
    I had the opportunity to visit Haiti this past January with 
Secretary Clinton's Chief of Staff and a point person on Haiti, 
and I can tell you that while important advancements have been 
made, it is clear that much work still remains to be done. It 
is critical that we take all steps possible to ensure the 
support that we provide is carried out in an effective and 
sustainable manner. The report mandated by H.R. 1016 will help 
us in this effort.
    I would like to thank Ranking Member Berman and his staff 
for working with us to iron out the details of this amendment. 
I look forward to continuing to work with my colleagues in 
support of these oversight efforts, and I am now pleased to 
recognize my friend, the ranking member, for remarks he may 
have on this measure. Mr. Berman.
    Mr. Berman. Thank you very much, Madam Chairman, and I want 
to first commend our former committee member, Ms. Barbara Lee, 
for introducing this bill. It provides a detailed snapshot of 
where Haiti is roughly a year after the horrific January 10, 
2010, earthquake which left more than 316,000 dead. Many 
international actors and donors have joined the U.S. in a 
complex program to assist the people of Haiti to help us 
understand all of the moving parts of this process.
    The bill requires a report from the President on the state 
of U.S. programs and projects in place, to protect vulnerable 
populations, to improve water and sanitation, of coordination 
with other donors, NGOs, the Haitian diaspora, and the Haitian 
Government. We need to remain engaged in helping Haiti rebuild 
its future. This bill will help us help Haiti and I strongly 
support it. And I am pleased we have reached an agreement on 
the bipartisan amendment in the nature of a substitute. I look 
forward to helping get this bill to the floor.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman. I 
know that Ms. Wilson of our committee represents a growing and 
vibrant Haitian American community, and I would like to know if 
she would like to be recognized for 5 minutes to speak on this 
bill. Without objection.
    Ms. Wilson of Florida. Thank you, Madam Chair. I would like 
to thank the chair for the inclusion of one of my amendments in 
the bill today and the opportunity to describe another 
amendment which I wanted to offer but was not germane. I want 
to work with the chair and Ranking Member Berman to quickly 
address this issue.
    I would like to first commend the chairman and ranking 
minority member of the Subcommittee on the Western Hemisphere, 
Congressmen Connie Mack and Eliot Engel, for supporting an 
amendment which included language that I wanted to offer and 
was offered by Congressman Engel. That amendment added a 
requirement to the report asking of the suitability of Haiti to 
receive deported individuals and the steps that Haiti has taken 
to strengthen its capacity in that regard. I would also like to 
thank the chairwoman for accepting this language in her 
amendment in the nature of a substitute.
    The amendment that I wanted to offer goes a bit further and 
complements the earlier language. It is very simple and adds an 
enforcement provision to the bill. It says that if the required 
report is not delivered to Congress within the 6-month deadline 
required by the bill upon enactment, all deportation should be 
halted until the report is transmitted to Congress and the 
President determines and certifies that it is appropriate for 
these deportations to continue.
    Some of you may not be aware that temporary protective 
status for Haitian nationals currently in the United States is 
set to expire on July 22, 2011. Along with several other 
Members of Congress, I have asked that this temporary 
protective status designation be extended for 1 year. We have 
just witnessed the 1-year anniversary of the earthquake and 
both the Nation and people of Haiti face enormous economic and 
infrastructure challenges. One year later, it is estimated by 
many organizations that 1 million people still live in tent 
camps, and it is reported that one person who was sent back to 
Haiti died from cholera.
    According to the January 22 study by U.S. and Haitian 
researchers, 38 percent of these camps still don't have regular 
access to water, down only 2.5 percentage points since August. 
Nearly a third of camps aren't equipped with toilets, and where 
toilets can be found they are shared by an average of 273 
people each. The United Nations standards call for one toilet 
per 20 people. As a result, many camp residents remain highly 
vulnerable to fecal-born diseases like cholera, which has 
killed over 4,600 people and infected nearly a quarter of a 
million since October of last year.
    This issue is important to me and it is important to the 
international stature of the United States. The 17th 
Congressional District of Florida has the largest number of 
Haitian nationals in America. This is the just and humane thing 
to do.
    I understand that my amendment is not germane and could 
cause a point of order against the bill as it moves forward. I 
look forward to working with Chairwoman Ros-Lehtinen and 
Ranking Minority Member Berman to quickly address this issue. I 
thank the chairman, the ranking minority member, and my 
colleagues on the committee for listening to me. I yield back 
the remainder of my time.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Wilson. And 
on behalf of our south Florida congressional delegation, Mr. 
Deutch, Mr. Rivera, and I also look forwarded to working with 
you and Mr. Berman on this issue as it moves forward.
    Seeing no baseball signals about members wishing to be 
recognized, I would like to ask if there are any amendments to 
the base text. Mr. Connolly is recognized.
    Mr. Connolly. Madam Chairman, thank you. I have a 
straightforward amendment, and I would call it up at the desk.
    Ms. Carroll. Amendment to the amendment in the nature of a 
substitute to H.R. 1016 offered by Mr. Connolly of Virginia. 
Page 3, after line 18, insert the following new paragraph.
    [The amendment referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Without objection, the amendment is 
considered read. And the chair reserves a point of order on the 
amendment. But Mr. Connolly is recognized for up to 5 minutes 
to explain his amendment.
    Mr. Connolly. Thank you, Madam Chairman. Amendment No. 42 
simply applauds the work of the urban search and rescue teams 
from Los Angeles, Miami/Dade, City of Miami, Virginia Beach 
that have worked with USAID and FEMA in response to numerous 
tragedies and in particular, of course, most recently Japan but 
Haiti as well. And this language simply calls them out for 
special treatment. I was under the impression, Madam Chairman, 
that this had been cleared.
    Chairman Ros-Lehtinen. Correct. Correct. Thank you. I 
apologize, Mr. Connolly.
    Mr. Connolly. And Madam Chairman, I just think they do 
outstanding work. This is a great partnership between USAID and 
our local fire and rescue departments. Each of our respective 
jurisdictions can and should be proud of work they do and the 
ambassador role they play on behalf of the people of the United 
States when others around the world suffer tragedies, as they 
did in Haiti and most recently in Japan.
    And with that, I yield back my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly. The chair 
would like to recognize herself to acknowledge my support for 
this amendment because it highlights the admirable 
contributions that many American corporations, organizations, 
people have made to support the relief and recovery efforts in 
Haiti. Americans have donated $1.4 billion to charities in 
support of this cause. My own district and Ms. Wilson's 
district of Miami has sent two urban search and rescue teams to 
Haiti immediately following the quake, pledged $60,000 to 
relief efforts. The Port of Miami and Miami International 
Airport have waived certain fees for relief-related efforts. 
And several other assets from south Florida were utilized, U.S. 
Southern Command (SOUTHCOM), which served as the operation 
center for the U.S. response, Coast Guard Key West, Homestead 
Air Reserve Base, which was the initial departure point for C-
130s that carried relief, supplies, and personnel to Haiti. And 
as we have noted, the underlying bill states that individual 
businesses and philanthropic organizations across the U.S. and 
throughout the international community responded in support of 
Haiti and its populace during the crisis, sometimes in 
innovative ways, such as fundraising through text messages.
    Does anyone wish to be heard on the amendment? Mr. Berman.
    Mr. Berman. Thank you, Madam Chairman.
    I strongly support this paragraph of praise for the U.S. 
urban search and rescue teams in reference to an earlier passed 
House Resolution. And once again I urge my colleagues to 
consider with respect to the other bill similar references of 
concern for the disaster in Japan and urge adoption of this 
amendment.
    Chairman Ros-Lehtinen. Mr. Payne is recognized for 5 
minutes.
    Mr. Payne. I would just like to say very briefly, let me 
commend the author of the resolution and the strong support 
that has been received from the chairperson, the ranking 
member, these perfecting amendments. I think it is certainly 
important that we do recognize those people who put themselves 
in harm's way, as is indicated in this amendment. So I would 
just like to commend the committee and for us to continue to 
have a concern about our neighbors so close to our shores.
    With that, I yield back.
    Chairman Ros-Lehtinen. Thank you. I see no other baseball 
signals for recognition of time. So hearing no further requests 
for recognition, the question occurs on the amendment. All 
those in favor say aye. All those opposed no.
    In the opinion of the chair, the ayes have it and the 
amendment is agreed to.
    Are there any members who wish to speak on the base text of 
the bill before us? If there are no further amendments, I move 
that the bill be reported favorably to the House, as amended. 
All those in favor say aye. All those opposed no.
    The ayes have it, and the motion to report favorably is 
agreed to. Without objection the bill, as amended, will be 
reported as a single amendment in the nature of a substitute, 
incorporating the amendments adopted by this committee and the 
staff is directed to make technical and conforming changes.
    We now move to the last bill. I now call up the bill H.R. 
515, the Belarus Democracy Reauthorization Act of 2011. Without 
objection, the bill will be considered as read and open for 
amendment at any point. And the bipartisan amendment in the 
nature of a substitute that members have before them which 
represents the subcommittee mark by Mr. Smith and Mr. Payne 
will be considered as read and as base text for purposes of 
amendment.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <greek-l>ANS deg.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. I recognize myself to speak on the 
bill. I strongly support the bill before us. I would like to 
express my condolences to the people of Belarus who earlier 
this week suffered a horrific bombing in the subway in Minsk 
that killed 12 and wounded 200 others. I thank my colleague 
Chris Smith for introducing this bill, which would amend the 
Belarus Democracy Act of 2004. This measure is both timely and 
important.
    Belarus has been correctly deemed the last dictatorship of 
Europe. The basic freedoms and human rights of the people of 
Belarus are systematically violated, pro-democracy political 
activists are subject to beatings and imprisonment, and the 
authorities in Belarus have imposed severe restrictions on free 
speech and on independent media.
    On December 19, 2010, a fraudulent presidential election 
was held in Belarus. According to the recently released 
Department of State 2010 Human Rights Report, ``Authorities 
denied citizens the right to change their government, 
manipulating the December 19th Presidential election to ensure 
that the President would not be seriously challenged.'' 
Further, it continues:

        ``Security forces beat detainees and protesters, used 
        excessive force to disperse peaceful demonstrators, and 
        reportedly used torture during investigations. A 
        crackdown on a post-election demonstration led to the 
        arrest of over 700 activists, including criminal 
        charges against five Presidential candidates and 
        numerous activists and journalists.''

    The U.S. and other responsible nations must support pro-
democracy forces in Belarus and hold the authoritarian regime 
in Minsk accountable for its growing abuses. I will not read my 
entire statement, but I am pleased to yield to the ranking 
member for any remarks that he may have on the measure.
    Mr. Berman. I thank the chairman, and I want to join her in 
expressing my condolences to the families and loved ones of 
those who perished or were injured in Monday's bombing in the 
Minsk subway.
    The fact is that Belarus is Europe's last dictatorship and 
that that shouldn't be allowed to go unchallenged. On December 
19 of last year Belarus President Alexander Lukashenko staged a 
fraudulent election. Immediately afterwards, he arrested 
candidates who dared to run against him and hundreds of 
citizens who took to the streets in Minsk to protect the 
election results. The regime has continued to harass members of 
opposition and the local parties, human rights activists, and 
civil society and to suppress Belarusans' access to free press 
and information.
    Two weeks ago the OSCE was forced to close its office in 
Minsk. While international media attention has moved on to 
events elsewhere, we have not forgotten the people of Belarus. 
Many heroic individuals still languish in prison without access 
to their families or legal counsel. With this reauthorization, 
the U.S. is doing what we can to encourage their free exchange 
of ideas and alternative leaders in Belarus. Belarusans have 
the same right to self-government and free expression as their 
neighbors. And we need to continue to call for the reopening of 
the OSCE Minsk mission and call for the Lukashenko government 
to cooperate with a OSCE fact-finding mission requested by the 
14 participating States under the Moscow Mechanism.
    I urge support for the bill and yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    I am pleased to recognize the author of this bill, the 
chairman of the Subcommittee on Africa, Global Health, and 
Human Rights, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Madam Chair. And thank you for 
scheduling this legislation for a markup. As my colleagues 
know, the fraudulent December 19th election in Belarus and the 
ongoing crackdown on democracy activists and the independent 
journalists by the Lukashenko dictatorship underscore the need 
for this legislation.
    Immediately after the election, the government responded to 
peaceful protests against electoral fraud with savage mass 
beatings and large scale detentions. Some 700 people were 
detained. Some of those jailed have been abused and many have 
been tortured. A number have already received harsh sentences 
of up to 4 years. Nearly 30 remain in detention and many more 
await trial and could be incarcerated for up to 15 years or 
more. Many of those people over the years, Madam Chair, I would 
note parenthetically, are people that I have come to know, 
including Anatoly Lebedko, who is the leader of the United 
Civic Party who was arrested and awaits a trial for mass 
disturbances and organizing and participating in that 
disturbance. They had a rally. And for that, he faces, like the 
others, up to 15 years in prison.
    The crackdown follows the pattern of repression that has 
characterized Lukashenko's nearly 17-year rule. Through a 
series of rigged elections, large-scale intimidation, and the 
suppression of independent media and civil society, the 
dictator has long consolidated his control over virtually all 
national institutions. Lukashenko's dictatorship has the worst 
democracy and human rights record of any government in Europe. 
Legislation that I authored earlier, the Belarus Democracy Act 
of 2004 and the Belarus Democracy Reauthorization Act of 2006, 
passed the House and Senate with overwhelming bipartisan 
support and was signed into law.
    H.R. 515 takes the earlier legislation as its starting 
point. It requires the State Department to report to Congress 
on transactions or cooperation by the Belarusan Government with 
any other government to censor or surveil the Internet, as well 
as arms sales and the personal assets of the dictator and his 
senior leaders.
    Just as significant, the bill supports targeted sanctions. 
It expresses the sense of Congress to deny the privilege of 
visiting our country of senior Belarus officials, their 
immediate families, and others involved in human rights 
violations and anti-democracy actions, including those involved 
in the December 19 post-election crackdown. Likewise, it also 
has provisions prohibiting U.S. Government financing, except 
for humanitarian goods and agricultural or medical products and 
nonhumanitarian loans from international financial institutions 
to the Belarusan Government and blocking assets owned by the 
Belarusan Government's senior leadership or their families and 
others involved in anti-democratic actions. These sanctions are 
aimed at the senior leadership of a dictatorship that displays 
utter contempt for the dignity and the rights of the Belarusan 
people. And with these sanctions, we stand with the Belarusan 
people against their oppressors.
    I want to stress that both the Bush and the Obama 
administrations have made good use of the previous Belarus 
Democracy Act of 2004 and 2006 to emphasize to the people and 
to the government especially that the elected representatives 
of the American people by overwhelming bipartisan majorities 
support the policy of condemning and sanctioning the Belarusan 
Government's brutal human rights violations. I want to thank 
Mr. Payne, our ranking member on the subcommittee, for his 
support and for joining us in the April 1st hearing where we 
heard from a number of witnesses including the DAS Dan Russell, 
who did an extraordinarily good job and is at his post, and I 
also want to thank my good friend and colleague Chairman Burton 
and Mr. Meeks, the ranking member. Both of our subcommittees 
met in hearings, a hearing and a briefing, in a closed briefing 
about the arms sales and other related security issues. So I 
want to thank those two gentlemen as well.
    And I urge strong support for the legislation.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Smith. Before 
we move to the amendment process, are there any other members 
who wish to be recognized?
    Mr. Payne is recognized for 5 minutes.
    Mr. Payne. Let me commend the chairman of the Subcommittee 
on Africa, Global Health, and Human Rights for the Belarus 
Democracy Reauthorization Act of 2011, H.R. 515. We have worked 
together on this legislation, as you mentioned. We had the last 
remnants of the old Warsaw Pact where democracy went throughout 
Eastern Europe and other parts of the world. But Belarus is 
sticking to its being caught in time and refuses to move 
forward. As we see progress and people speaking out throughout 
the world, whether it is North Africa, whether it is the Middle 
East, whether it is throughout our world, people are saying 
that we want to have freedom, we want to be democratically run; 
we are against tyranny, and we want to have a better quality of 
life for our children.
    So I strongly support this. And as we all know, there is a 
similar struggle going on in Cote d'Ivoire and we would hope 
that we could get the legislation which my chairman certainly 
supports. We had a markup and a hearing on Cote d'Ivoire, and I 
hope that the U.S. Congress could join with the entire world 
community to say that Mr. Gbagbo is out of step with the world. 
And so maybe the House could get in step with the world.
    Thank you very much. I yield back.
    Chairman Ros-Lehtinen. Thank you. Thank you, Mr. Payne, and 
I know that Mr. Connolly has an amendment. If the clerk will 
report the amendment.
    Ms. Carroll. Amendment to the amendment in the nature of a 
substitute to H.R. 515 offered by Mr. Connolly of Virginia. 
Page eight, beginning on line two.
    [The amendment referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Without objection, the amendment is 
considered as read, and the gentleman is recognized to explain 
his amendment.
    Mr. Connolly. I thank the chairman. Again, this is a 
clarifying amendment to simply amplify the language that we 
have got there that we are talking about ending tyranny by 
empowering the people of Belarus to end that tyranny in their 
country. I think that is a core principle of American 
democracy. That has been a value espoused by our country for 
over 200 years.
    I simply want to amplify that language. I have checked with 
the author of the bill and he, I believe, has accepted the 
language.
    Chairman Ros-Lehtinen. The chair also supports the 
amendment. Mr. Berman?
    Mr. Berman. Me, too.
    Mr. Connolly. I thank my colleagues, and I yield back.
    Chairman Ros-Lehtinen. We will dispense with this amendment 
first. Any other member seek recognition on this amendment? 
Hearing no further requests for recognition, the question 
occurs on the amendment. All in favor say aye. All those 
opposed, no.
    In the opinion of the chair, the ayes have it, and the 
amendment is agreed to.
    Are there any other amendments to the bill? If not, and 
because we have a reporting quorum being present, I move that 
the bill be reported favorably to the House, as amended. All 
those in favor say aye. All opposed no.
    The ayes have it and the motion to report favorably is 
agreed to. Without objection, the bill, as amended, will be 
reported as a single amendment in the nature of a substitute 
incorporating the amendments adopted by the committee, and the 
staff is directed to make technical and conforming changes.
    This concludes the business of today. The committee is 
adjourned. Thank you, Mr. Berman. Thank you, Members.
    [Whereupon, at 11:20 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Markup summary deg.

                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Engel statement H.R. 1016 deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
